No.
In The

Supreme Court of tlje ®ntte& States:
Charles V. Schneider,
Petitioner
v.
Commissioner of Internal Revenue,
Respondent
On Petition for Writ of Certiorari
to the
United States Court ofAppeals
for the Eighth Circuit
PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLANCE
As required by Supreme Court Rule 33. l(h), I certify that the accompanying
Petition for Writ of Certiorari, by Charles V. Schneider, was prepared using
Microsoft Word 2013, in 12-point Century Schoolbook font, and that it contains
2,337 words excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d), as determined by the Microsoft Word 2013 word­
counting system.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 05, 2019.

*

Charles V. Schneider

